Platinum Plus Visa Credit Card Disclosure
These Rules govern your participation in MSU Federal Credit Union’s Platinum Plus Visa Credit Card Cash Back Rewards Program (also referred
to as the “Program”). Your participation in this Program enables you to earn cash back rewards that will be deposited directly into your MSU
Federal Credit Union account. “We,” “us,” and “ours” means or refers to this Credit Union. “Cardholder” means an individual who has requested and/
or received a Platinum Plus Visa Credit Card (also referred to as a “Card”). By using or accepting a Card, you (as a Cardholder) agree to these Rules
and any changes, additions, or deletions to them. We issue and administer all Cards. Your rewards can be found by accessing your ComputerLine
account at www.msufcu.org or by contacting us at 800-678-4968. Hours of operation are Monday through Friday 7:00 a.m. to 9:00 p.m. and
Saturday from 9:00 a.m. to 3:00 p.m. ET. We manage and administer the Program. These Rules and Card transactions are also subject to other
agreements you may have with us (for example, Cardholder agreements).
General
1. The Program is offered at the sole discretion of MSU Federal Credit Union. We reserve the right to change these Rules at any time,
for any reason, and without notice, and this includes the right to suspend or end the program, cancel outstanding cash back
rewards, or change redemption of outstanding rewards. We do not assume any liability whatsoever for these changes.
2. Cards and related accounts may be subject to fees and charges in accordance with the applicable Cardholder agreements and fee
schedules.
3. In the event of Cardholder fraud, abuse of the Program privileges, or violation of the Rules, we, at our sole discretion, reserve the
right to cancel your participation in the Program.
4. You are responsible for any personal tax liability related to participation in the Program or as a result of cash back rewards earned or
redeemed.
5. The Program is void where prohibited by law.
6. We reserve the right to alter the Program and policies and will be the final authority on cash back rewards credits and award qualifications.
Earning Cash Back Rewards
1. Cardholders will earn 1% cash back for every one U.S. dollar ($1) in eligible net purchases made on their Platinum Plus Visa Credit Card
rounded to the nearest whole dollar.
2. “Net purchases” are defined as the dollar value of goods and services purchased with a Card beginning with the first day of the billing
cycle minus any credits, returns, or other adjustments as reflected on monthly billing statements.
3. Transactions excluded from cash back rewards calculation include the following: (a) cash advances, ATM withdrawals, convenience checks,
balance transfers, and any PIN (Personal Identification Number) transactions, except as otherwise permitted in special promotional offers;
(b) any fees and card-related charges posted to the Card account, including late fees and finance charges as outlined in the applicable
Cardholder agreement; or (c) tax payments or any unauthorized charges or transactions.
4. Negative cash back rewards will post on a statement if returns or credits exceed purchases.
5. Cash back rewards may be earned only if the applicable account is in good standing. A Card account is not in good standing if closed or
suspended. If the account is closed by either you or us for any reason, all cash back rewards that have been accumulated but unused will
be forfeited immediately.
6. Cash back rewards accrual will begin upon activation of your Card.
7. The amount of cash back rewards a Cardholder can earn in a calendar year is unlimited.
8. Cash back rewards earned will be credited on a daily basis, and will be displayed on the monthly statement.
9. Cash back rewards do not expire. Cash back rewards are not considered your property and are generally not transferable upon death,
as part of a legal settlement, or as part of a domestic relations issue.
Redeeming Cash Back Rewards
1. Visit our ComputerLine or mobile app, contact our Call Center at 800-678-4968, or visit any branch location for all redemption inquiries
and to redeem your cash back rewards.
2. To redeem your cash back, select the account where it will be deposited and the amount. You can redeem your cash back rewards at any
time, in any amount. Cash redemptions will be credited to your MSU Federal Credit Union account within one business day of a
redemption request.

W117R

115

07/15

Federally insured
by NCUA

